Case: 19-20306

Document: 00515405130

Page: 1

Date Filed: 05/05/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-20306

WILLIAM MONTERIAL JONES
Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Appeal from the United States District Court
for the Southern District of Texas
ON PETITION FOR REHEARING
Before HAYNES, GRAVES, and ENGELHARDT, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is DENIED

ENTERED FOR THE COURT:
Is/ James E. Graves, Jr.
UNITED STATES CIRCUIT JUDGE

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-20306

FILED
March 25, 2020
Lyle W. Cayce
Clerk

WILLIAM MONTERIAL JONES,
Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-3284

Before HAYNES, GRAVES, and ENGELHARDT, Circuit Judges.
PER CURIAM:*
A jury convicted William Monterial Jones, Texas prisoner # 1971347, of
aggravated robbery with a deadly weapon and being a felon in possession of a
firearm. The trial court sentenced him to 40 years in prison on each conviction,
to run concurrently. The district court denied his 28 U.S.C. § 2254 petition and
denied him a certificate of appealability (COA) to appeal the denial of his
petition. Jones now moves for a COA from this court, seeking to challenge the

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

No. 19-20306
district’s court’s rejection of his sufficiency of the evidence claim and its
determination that federal review was barred by the state court procedural
decision.
For a COA to issue, Jones must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Slack v. McDaniel,
529 U.S. 473, 483-84 (2000). Jones can do so by showing “that reasonable
jurists would find the district court’s assessment of the constitutional claims
debatable or wrong,” Slack, 529 U.S. at 484, “or that jurists could conclude the
issues presented are adequate to deserve encouragement to proceed further,”
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The determination of whether
to grant a COA must be made “without full consideration of the factual or legal
bases adduced in support of the claims.” Buck v. Davis, 137 S. Ct. 759, 773
(2017) (internal quotation marks and citation omitted). _
—i

„

- Jones has not made the required showing. See Slack, 529 U.S. at 484.
.

*

i

Accordingly, his motion for a COA is DENIED. Jones’s motion to supplement
r

s*

^

"~fr

the record on appeal and for a copy of the appellate record is likewise DENIED.
We construe Jones’s motion for a COA with respect to the district court’s denial
of an evidentiary hearing as a direct appeal of that issue, see Norman v.
Stephens, 817 F.3d 226, 234 (5th Cir. 2016), and AFFIRM, see Cullen v.
Pinholster, 563 U.S. 170, 181, 185-86 (2011).

COA DENIED; MOTIONS TO SUPPLEMENT AND FOR A COPY OF
THE RECORD DENIED; AFFIRMED.

r

2

t

t

United States District Court
Southern District of Texas

ENTERED
April 22, 2019

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
WILLIAM MONTERIAL JONES,
TDCJ #1971347,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal
Justice - Correctional
Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§
§

David J. Bradley, Clerk

CIVIL ACTION NO. H-18-3284

MEMORANDUM OPINION AND ORDER
William Monterial Jones has filed a Petition for a Writ of
Habeas Corpus By a Person in State Custody ("Petition")
Entry No.

1),

seeking relief under 28 U.S.C.

§

2 2 54

convictions entered against him in Harris County, Texas.

(Docket
from two
Pending

before the court is Respondent Lorie Davis's Motion to Dismiss With
Brief in Support

("Respondent's Motion")

(Docket Entry No.

arguing that his claims are procedurally barred.

18),

In response,

Jones has filed Petitioner's Request for an Evidentiary Hearing
With His Suggestions in Support (Docket Entry No. 16).

Jones has

also filed Petitioner's Traverse to Response to Order to Show Cause
("Petitioner's Traverse")

(Docket Entry No.

Supporting Exhibits (Docket Entry No. 20).

19),

which includes

After considering all

of the pleadings, the state court record, and the applicable law,
the court will grant . Respondent' s Motion and will dismiss this
action for the reasons explained below.

O

I.

Background

A grand jury in Harris County, Texas, returned two indictments
against Jones in Case Nos. 1387546 and 1387547, charging him with
aggravated robbery with a deadly weapon, namely a firearm,

and

unlawful possession of a firearm as a felon, respectively.1

Both

indictments

with

were

enhanced

for

purposes

of

punishment

allegations that Jones had at least two prior felony convictions
for robbery and for unlawful possession of a weapon as a felon.

On

December 11, 2014, a jury in the 351st District Court for Harris
County, Texas, found Jones guilty as charged in both indictments.2
After Jones acknowledged that the enhancement allegations were
"true," the trial court sentenced him to concurrent 40-year terms
of imprisonment in both cases.3
On direct appeal, Jones argued that the evidence was legally
insufficient to support a guilty verdict because the State failed
to prove his identity as the perpetrator of the armed robbery

indictment in Case No. 1387546, Docket Entry No. 13-2, p. 10;

Indictment in Case No. 1387547, Docket Entry No. 13-3, p. 10. For
purposes of identification, all page numbers refer to the
pagination imprinted by the court's electronic filing system,
CM/ECF.
2Court Reporter's Record, vol. 5, Docket Entry No. 13-8, p.
13 .
3Court Reporter's Record, vol. 6, Docket Entry No. 13-9, pp.
4-10; Judgment of Conviction by Jury in Case No. 1387546, Docket
Entry No. 13-2, p. 134; Judgment of Conviction by Jury in Case No.
1387547, Docket Entry No. 13-3, p. 126.
-2-

beyond a reasonable doubt.4

He also argued that the trial court

erred by admitting speculative testimony from an investigator.5
The intermediate court of appeals rejected both arguments and
affirmed the conviction after summarizing the evidence presented
against Jones at trial as follows:
On the evening of September 23, 2012, Mohammad Aman, the
complainant, and Nagy Aly were working at Mo's Food Mart
when the store was robbed. Aman, the cashier, testified
that a tall black male entered the convenience store,
jumped onto the front counter behind the protective
glass, shot Aman in the arm, and told him, "Okay. Now
you're going to give me the money." Aman testified that
the man was wearing a’do-rag over his face, a t-shirt,
and dark-colored pants. As Aman began to open the cash
register, Aly, who had been working in the back of the
store, approached the counter with his gun and told the
assailant to drop his weapon. ‘Aman testified that Aly
shot the robber as he fled the store. Paramedics
transported Aman to the hospital where a police officer
took his statement. The officer then accompanied Aman to
another hospital room to see if he could identify the man
there as the robber. Aman told the officer that the man
in the room was not the robber.
On the night of the robbery, Aly, the night Stocker,
heard someone near the cash register demand money from
Aman. When Aly approached the front of the store, he saw
a man behind the register with Aman. The robber saw Aly's
gun and fired a shot at him. Aly then fired six shots at
the man as he fled the store. Aly testified that as he
was standing at the front door, he saw the robber run
into the store's parking lot, fall down, and drop a hat
and mask. Aly identified the hat and do-rag shown in
State's Exhibits 15 and 16 as the hat and mask he saw the
robber drop while fleeing. Aly did not identify the man
in the hospital room as the robber.

Appellant's Brief, Docket Entry No. 13-11, at 8.
5Id.
-3-

Deputy Langston Smart, with the Harris County Constable's
Office, was dispatched to the convenience store following
the robbery. After securing the scene, Deputy Smart
collected a baseball cap and do-rag found in the parking
lot outside the store. Deputy Smart also interviewed Aman
and Aly who told him that the perpetrator was a thin,
black male who had worn a "do-rag over his face. Although
the store had security cameras, they were not working on
the night of the robbery.
Investigator Zachary Long, with the Robbery Division of
the Harris County Sheriff's Office, was assigned as the
lead investigator in the case. [6] Investigator Long went
to Northwest Medical Center and interviewed Aman who told
him that the robber, a black male, wore dark clothing, a
ball cap, and a black cloth covering his face.
Investigator Long then interviewed appellant who had been
admitted with gunshot wounds to the same hospital.
Appellant told him that he had been driving his car, a
white Crown Victoria, when another vehicle ran him off
the road at Airtex Boulevard near Interstate 45, and that
the occupants shot at him while he ran away. He also told
Investigator Long that he subsequently returned to his*
car and drove to his girlfriend's house.
Investigator Long testified that, based on his years of
experience, appellant's version of events, and the fact
that appellant arrived at the hospital dressed only in a
t-shirt, white boxer shorts, and socks, he did not find
appellant's
statement
credible.
Investigator Long
testified that he took Aman into appellant's hospital
room but that Aman told him appellant was not the robber.
Investigator Long stated that Aly likewise did not
identify appellant as the robber. Investigator Long also
interviewed Dominique Sampson, the person who brought
appellant to the hospital. Sampson told investigator Long
that he had received a call from a friend asking him to
pick up a friend who had been shot, and that he picked
appellant up at a Popeye's Chicken restaurant off of
Airtex and took him to the hospital. According to
Sampson, appellant did not say anything during the ride
to the hospital and only moaned. Investigator Long,
learned that a 1995 white Crown Victoria was later found
abandoned in a moving lane of traffic near Airtex.

6At the time of trial, Investigator Long had worked in law
enforcement for twenty-six years.
-4-

Lieutenant Anthony McConnell, with the Crime Scene Unit
of the Harris County Sheriffs Office, conducted a gunshot
residue test on appellant and obtained a voluntary buccal
swab from him for purposes of DNA analysis. The results
of the GSR test were negative.
Christy Smejkal, a DNA analyst with the Harris County
Institute of Forensic Sciences, compared the DNA profiles
from the baseball cap and the do-rag discovered in the
store's parking lot to appellant's DNA profile obtained
from his buccal swab. She testified that the DNA results
from the do-rag revealed a mixture of DNA from two
and
that
appellant
was
the
major
individuals,
contributor. Smejkal further testified that the DNA
profile from the baseball cap was consistent with
appellant's DNA profile.
Jones

v.

State,

672842, at *1-2

Nos.

01-14- 01-32-CR,

(Tex. App. - Houston [1st Dist.]

(footnote renumbered from original).7
Court

of

01-14-01033-CR,

Criminal

Appeals

denied

2016

WL

Feb. 18, 2016)

On July 27, 2016, the Texas
his

pro

petition

se

for

discretionary review. 8
Jones challenged his convictions by filing an Application for
a Writ of Habeas Corpus Seeking Relief From Final Felony Conviction
[Texas]

Under

Code

of

Criminal

("Application") with the trial court.9

Procedure,

Article

In his Application, Jones

raised the following claims:
1.

There was "no evidence" to support his conviction.

2.

He was denied effective assistance of counsel when
his defense attorney failed to (a) file a pretrial
(b)
motion to suppress the DNA test results,
investigate his medical records, and (c) request
the assistance of a DNA expert witness.

7Memorandum Opinion, Docket Entry No. 13-60, pp. 44-57.
8Notice, Docket Entry No. 13-24, p. 1.
Application, Docket Entry No. 13-56, pp. 6-22.
-5-

11.07

3.

He was denied effective assistance of counsel on
appeal when his appellate attorney failed to raise
ineffective-assistance claims against his trial
counsel.10

The trial court entered findings of fact and concluded that Jones
was not entitled to relief.11
The Texas Court of Criminal Appeals remanded the case for
additional findings of fact on the claim that defense counsel
failed to conduct an adequate investigation of the medical records,
noting that Jones presented an affidavit from a nurse named Kelly
Russell, who stated that Jones could not have run any distance due
to his injuries, implying that he was not the perpetrator.12

After

obtaining additional briefing on this claim, the trial court found
that the affidavit submitted by Jones was falsified.13

The State

presented an affidavit from Ms. Russell, stating that she did not
prepare or sign the previous affidavit submitted by Jones, that she
had no personal knowledge about his medical condition, and would

10See id. at 11-16.

“State's Proposed Findings of Fact, Conclusions of Law, and
Order ("Findings and Conclusions"), Docket Entry No. 13-60, pp. 2530.
12Order, Docket Entry No. 13-55,
Docket Entry No. 13-55, pp. 20-21.

pp.

3-5.

See Affidavit,

“State's Proposed Findings of Fact, Conclusions of Law, and
Order After Remand ("Findings and Conclusions After Remand"),
Docket Entry No. 13-55, p. 30.
-6-

not have been qualified to testify if she had been subpoenaed

as

a witness.14
On August 22,

2018,

the Texas

Court of Criminal Appeals

dismissed the Application, citing Jones for abuse of the writ.15
In a written opinion issued in connection with that order,. the
Texas Court of Criminal Appeals found that Jones abused the writ by
submitting 'false evidence and that he "waived and abandoned any
contention" in connection with his claims for relief as a result:
In his present application, Applicant contends, among
other things, that his trial counsel rendered ineffective
assistance because counsel failed to present medical
records and interview and subpoena medical staff to show
that Applicant was severely injured and would have been
unable to run from the crime scene. This application,
however, presents a more serious question. Applicant
alleges that medical personnel was available to testify
on Applicant's behalf. Applicant has provided an
affidavit, purporting to be from a nurse, Kelly Russell,
who states that Applicant could not have run any distance
due to his injuries.
However, Kelly Russell has filed an affidavit and denies
preparing or signing the affidavit, stating that she is
not a nurse, that she does not, in the course of her
employment, draft affidavits providing medical analysis
or provide expert opinions regarding medical conditions
of patients, and that she does not have any personal
knowledge of Applicant's medical condition, nor is she
qualified to testify about his medical treatment. Based
on these statements, the trial court has found that Kelly
Russell did not prepare or ’sign the affidavit submitted
by Applicant in the instant writ application. Therefore,
the affidavit was falsified and/or was wholly the product
of Applicant because said affidavit was not authored,
executed, or signed by the purported affiant.

14Affidavit of Kelly Russell, Docket Entry No. 13-55, pp. 1819.
15Action Taken, Docket Entry No. 13-52, p. 1.
-7-

The writ of habeas corpus is not to be lightly or easily
abused. Sanders v. U. S. . 373 U.S. 1 (1963); Ex parte
Carr. 511 S.W.2d 523 (Tex. Crim. App. 1974). We find that
Applicant has abused The Great Writ by submitting false
evidence. We deny relief on this application and cite him
for abuse of the writ. By that abuse, Applicant has
waived and abandoned any contention that he might have in
regard to the instant conviction, at least insofar as
existing claims that he could have or should have brought
in the application. Ex parte Jones. 97 S.W.3d 586 (Tex.
Crim. App. 2003) ; Middaucrh v. State. 683 S.W.2d 713 (Tex.
Crim. App. 1985); Ex parte Emmons. 660 S.W.2d 106 (Tex.
Crim. App. 1983). Additionally, based on Applicant's
submission of false evidence, we find that Applicant has
filed a frivolous lawsuit.
Therefore, we instruct the Clerk of the Court of Criminal
Appeals not to accept or file the instant applications
for writ of habeas corpus, or any future application
pertaining to these convictions unless Applicant is able
to show in such an application that any claims presented
have not been raised previously and that they could not
have been presented in a previous application for a writ
of habeas corpus. Ex parte Bilton. 602 S.W.2d 534 (Tex.
Crim. App. 1980).
Ex parte William Monterial Jones. WR-85,603 - 03, 2 018 WL 75 02670, at
*1 (Tex. Crim. App. Aug. 22, 2018)
Jones now contends that he
relief

from his

(per curiam).
is entitled to federal habeas

conviction under 28

U.S.C.

§

2254(d).

Jones

raises the same claims that he presented on state habeas corpus
review, with the addition of a claim that his trial attorney was
ineffective for failing to object to a prejudicial remark by the 6
prosecutor.16

Noting that the Texas

Court of Criminal Appeals

dismissed his state habeas Application for his abuse of the writ,

16Petition, Docket Entry No. 1, pp. 6-8.
Because Jones is a
pro se litigant, the court has construed all of his submissions
under a less stringent standard than those drafted by lawyers. See
Haines v. Kerner. 92 S. Ct. 594, 596 (1972) (per curiam)
-8-

the respondent argues that federal review of his claims is barred
by the doctrine of procedural default.17
II.
The

federal

petitioner to

habeas

Standard of Review
corpus

standard

first present his

claims

of

review requires

in state

court and to

exhaust all state court remedies through proper adjudication.
28 U.S.C.

§ 2254 (b) .

a

See

To satisfy the exhaustion requirement the

petitioner must present his claims to the highest state court in a
procedurally proper manner so that the state court is given a fair
opportunity to consider and pass upon challenges to a conviction
before those issues come to federal court for habeas corpus review.
See.

e. g. . O'Sullivan v. Boerckel.

119 S.

Ct.

1728,

1732

(1999)

(explaining that comity dictates that state courts should have the
first opportunity to review a claim and provide any necessary
relief) .

When a state court declines to address a prisoner's

federal claims because he has failed to meet a state procedural
requirement, or state remedies are otherwise rendered unavailable
by a prisoner's own procedural default, federal courts are barred
from reviewing the claims.

See Coleman v. Thompson.

Ill S. Ct.

2546 (1991); Sones v. Hargett. 61 F.3d 410, 416 (5th Cir. 1995).

17Respondent' s Motion, Docket Entry No. 12 , pp. 4-6 .
-9-

Ill.
A.

Discussion

Federal Review is Procedurally Barred
As noted above, the Texas Court of Criminal Appeals denied the

Application for state habeas corpus relief filed by Jones after
finding that he abused the writ by submitting false evidence.
respondent argues,

therefore,

The

that federal review of the claims

found in his state court Application is barred by the doctrine of
procedural default.18

Noting further that Jones attempts to add a

claim for ineffective assistance of counsel that was not raised
previously on state court review (regarding his defense counsel's
failure to object to a prejudicial comment by the prosecutor) the
respondent argues that this claim is also procedurally barred by
the

Texas

abuse-of-the-writ

doctrine

because

Jones

cannot

now *

return to court to raise this unexhausted claim.19
The Supreme Court has emphasized that, under the doctrine of
procedural default,

"federal courts will not review questions of

federal law presented in a habeas petition when the state court's
decision rests upon a state-law ground that is independent of the
federal question and adequate to support the judgment."
Bell. 129 S. Ct. 1769, 1780 (2009)
marks omitted) .

Cone v.

(citation and internal quotation

It is well established that "[Texas' abuse-of-the-

writ] doctrine is a valid state procedural bar foreclosing federal

^Respondent's Motion, Docket Entry No. 12, pp. 4-6.
19Id. at 2, 5-6.
-10-

habeas review."
2008)

Moore v, Ouarterman. 534 F.3d 454, 463 (5th Cir.

*

(quoting.Coleman v. Ouarterman. 456 F.3d 537, 542 (5th Cir.

»

2006) ) ;
2008)

see also Hughes v. Ouarterman. 530 F.3d 336, 342 (5th Cir. «

("[The Fifth Circuit] has held that, since 1994, the Texas

[abuse-of-the-writ]

doctrine has been consistently applied as a

procedural bar, and that it is an independent and adequate state
ground for the purpose of imposing a procedural bar.")
omitted).

(citations

Thus, the dismissal of Jones' state habeas application

as an abuse of the writ constitutes an independent ground that is
adequate to bar federal review,

Because Jones cannot now return to »

state court to raise his unexhausted ineffective-assistance claim
concerning

his

attorney's

failure

to

object

to

a prejudicial

comment by the prosecutor, this also qualifies as a default that
bars federal review.
(5th Cir. 1997)

See Nobles v. Johnson. 127 F.3d 409, 422-23

(citation omitted).

In his response to Respondent's Motion Jones appears to argue
that he did not commit a default for abuse of the writ because the
second affidavit from Kelly Russell that was provided by the State,
in which she disavowed executing the affidavit provided initially
by Jones, was "not true.

n 20

The Texas Court of Criminal Appeals <

found as a matter of fact, however,, that the affidavit tendered by
Jones in support of his state habeas Application was false.

Ex

parte William Monterial Jones. WR-85,603 - 03 , 2018 WL 7502670, at *1

20Petitioner's Traverse, Docket Entry No. 19, pp. 11-14.
-11-

(Tex.

Crim. App. Aug.

22,

2018)

A state court's

(per curiam).

factual determinations are entitled to deference on federal habeas
Findings of fact are

corpus review.
unless

the

petitioner

convincing evidence."

rebuts

those

"presumed to be correct"
findings

28 U.S.C. § 2254 (e) (1) .

with

other documents from his defense attorney's file.21
not

present

any

proof,

much

less

and

Jones has presented

a variety of exhibits consisting of medical records,

does

"clear

clear

notes,

and

However, Jones «i
and

convincing

evidence, showing that the state court's finding that he submitted
a falsified affidavit was

incorrect.

His

abuse of

the writ,

therefore, constitutes a procedural default that bars review of the
claims that he raised on state habeas corpus review unless he fits
within an exception. »
If a petitioner has • committed a procedural default,
habeas corpus

federal

review is available only if he • can demonstrate:

(1) "cause for the default and actual prejudice as a result of the
alleged violation of federal law," or (2) that "failure to consider
the claims will result in a fundamental miscarriage of justice."
Coleman v. Thompson, 111 S. Ct. 2546, 2565 (1991) .
the

fundamental-miscarriage-of-justice

exception,

To fit within
a

habeas

petitioner who has defaulted his federal claims must show that, as
a factual matter,

"he did not commit the crime of conviction."

21Supporting Exhibits, Docket Entry No. 20, pp. 1-97.
(—12 —

j

Fairman v. Anderson. 188 F.3d 635, 644 (5th Cir. 1999)

(citations

omitted).
* Jones

does

not

demonstrate

any

cause

for

his

default.©

Because Jones has not established cause, his abuse of the writ will
be excused only if he can show that federal review of his defaulted
claims

is

necessary

to

prevent

a

fundamental

miscarriage

of

See Fearance v. Scott. 56 F.3d 633, 637 (5th Cir. 1995).

justice.

This requires evidence that would support a "colorable showing of
Kuhlmann v.

factual innocence."

106 S.

Ct.

2616,

2627

To be credible a habeas petitioner must support a claim of

(1986).
actual

Wilson.

innocence

with

"new reliable

evidence

whether

it

be

exculpatory scientific evidence, trustworthy eyewitness accounts,
or critical physical evidence - that was not presented at trial."
To prevail on such a

Schlup v. Delo, 115 S. Ct. 851, 865 (1995).

claim a petitioner must show "that it is more likely than not that
no reasonable juror would have convicted him in light of the new
evidence."

Id. at 867.

None of the evidence presented by Jones satisfies the Schlup
standard

and he

Instead,

Jones appears to argue that he is innocent because the

evidence

does

presented

not

against

show

him

that

at

he

trial

is

actually

was

innocent.

insufficient

to

22JOnes appears to admit that he fabricated the affidavit from
Russell by presenting a statement that she did not prepare or swear
to under oath, [believing he was authorized to do so7\ See Unsworn
Declaration from Jones, Docket Entry No. 20, pp. 57-58 (explaining!
that‘he used Russell's signature from a blank business records I
affidavit that he received with copies of his medical records).
-13-

establish his guilt.23
innocence

means

This argument

factual

innocence

fails because
and

not

" [a]ctual

mere

legal

insufficiency." United States v. Jones. 172 F.3d 381, 384 (5th Cir.
1999) (quoting Bouslev v. United States. 523 U.S. 614, 623, 118 S.
Ct.

1604,

1611

(1998)).

Alternatively,

for reasons

set

forth

briefly below, Jones does not demonstrate that the evidence against *
him at trial was insufficient to establish his guilt beyond a
reasonable doubt.

Accordingly, the court concludes that his claims

are procedurally barred and that Respondent's Motion should be
granted.
B.

Jones' Challenge to the Sufficiency of the Evidence
Jones argues that his challenge to the sufficiency of the

evidence

should not be

procedural default.24

considered barred by the

doctrine

of

He contends that, even though he repeated a

similar "no evidence" claim that was rejected on state habeas
corpus review, he did raise a challenge to the sufficiency of the
evidence on direct appeal that was rejected by the Texas Court of
Criminal Appeals when it rejected his petition for discretionary
review.25

To the extent that the claim was adjudicated on the

merits during his direct appeal, Jones has not demonstrated that)*
his challenge to the sufficiency of the evidence merits relief
under the

standard of

review found

23Petitioner' s Traverse

in the Antiterrorism and

Docket Entry No. 19, pp, 29-34.

24Petitioner' s Traverse, Docket Entry No. 19, P- 7 .
25Id. at 8.
-14-

Effective Death Penalty Act of

1996

("AEDPA"),

codified at 28

U.S.C. § 2254(d).
Under the AEDPA a federal habeas corpus court may not grant
relief

unless

decision

that

the

state

court's

was

contrary

to,

adjudication
or

involved

"resulted
an

in

a'

unreasonable

application of, clearly established Federal law, as determined by
the Supreme Court of the United States[.]"

28 U.S.C. § 2254(d) (1) .

This highly deferential standard "was meant to bar relitigation of
claims

already rejected

in

state proceedings

and

to

preserve

federal habeas review as "a 'guard against extreme malfunctions in
the state criminal justice systems,' not a substitute for ordinary
error correction through appeal."
Ct. 770, 786 (2011)

Harrington v. Richter.

(quoting Jackson v. Virginia. 99 S. Ct. 2781,*"To satisfy this high

2796, n. 5 (1979) (Stevens, J., concurring)).
bar,

a habeas

131 S.

petitioner is

required to

'show that

the

state

court's ruling on the claim being presented in federal court was so
lacking in justification that there was an error well understood
and

comprehended

in

existing

fairminded disagreement.

I u

law

Woods.

beyond
135

S.

any
Ct.

possibility
at

1376

for

(quoting

Richter, 131 S. Ct. at 786-87).
<■

.*

On

habeas

corpus

review

of

a

state

court

conviction

a

challenge to the legal sufficiency of the evidence is governed by
Jackson v. Virginia.

99 S.

Ct.

2781

(1979),

federal constitutional due process standard.
S. Ct. 1068, 1073

(1970)

which reflects the
See In re Winship, 90

("[T]he Due Process Clause protects the

accused against conviction except upon proof beyond a reasonable
-15-

doubt of every fact necessary to constitute the crime with which he
is charged.").

This standard only requires that a reviewing court

determine "whether, after viewing the evidence in the light most
favorable to the prosecution, any rational trier of fact could have
found the essential elements of

the crime beyond a reasonable

Jackson. 99 S. Ct. at 2789 (emphasis in original).

doubt."

The Supreme Court has emphasized "that Jackson claims face a
high bar in federal habeas proceedings because they are subject to
Coleman v. Johnson. 132 S. Ct.

two layers of judicial deference."
2060,

2062

questions

(2012)
only

A federal habeas corpus court

(per curiam) .

whether

the

state

court's

assessment

already-strict Jackson standard was unreasonable.
§ 2254(d) (1) .

of

the

See 28 U.S.C.

Together, Jackson and the AEDPA require a "double'
i

dose

of

deference

that

can

rarely be

Boyer v.

surmounted."

Belleque, 659 F.3d 957, 964 (9th Cir. 2011) .
In

conducting

its

review

under

this

doubly

deferential

standard, the court looks to the last reasoned state judgment that
considered and rejected the petitioner's federal claim.
v. Nunnemaker.

Ill S. Ct. 2590, 2594

See Ylst

(1991); see also Wilson v.

Sellers. 138 S. Ct. 1188, 1193-94 (2018).

That judgment was issued

by the intermediate state court of appeals, which set forth the
elements of the offense and concluded that there was more than
sufficient evidence to support the conviction:
In his first point of error, appellant contends that the
evidence
is
legally insufficient
to
support his
convictions. Specifically, he argues that the State
failed to prove beyond a reasonable doubt that he was the
-16-

i

i

1

perpetrator because (1) no witness identified him; (2)
the DNA evidence from the baseball cap and do-rag was
weak because Aman and Aly's testimony did not connect
those items to appellant; and (3) the blood sample
recovered from the crime scene excluded appellant, no •
fingerprints were taken, and the GSR test results were
negative.
Here, Aman testified that the robber was wearing a do-rag
over his face when he jumped over the counter, shot Aman
in the arm, and demanded money. Aly testified that, after
he fired his gun at the assailant, he stood at the front
door as he watched the assailant run into the store's
parking lot, fall down, and drop a hat and mask in the
parking lot. When shown State's Exhibits 15 and 16, Aly
identified the hat and do-rag shown in the photographs as
the hat and mask he saw the robber drop. Smejkal
testified that the DNA test results showed that appellant
was the major contributor of the DNA found on the do-rag,
and that appellant's DNA profile was consistent with the
DNA found on the baseball cap. Thus, the State presented
evidence connecting appellant to the discarded items
found in the store's parking lot following the robbery.
Moreover, the defense offered no alternative explanation
as to how appellant's DNA ended up on the do-rag and
baseball cap found at the crime scene. See Jones, 458
S.W.3d at 631-32 (finding evidence identifying defendant
as robber sufficient where, among other things, no other
testimony established connection between defendant and
complainant to explain how complainant's DNA profile
ended up on clothing that also contained defendant's DNA
profile) .
In addition to the DNA evidence, the State presented
other circumstantial evidence supporting the jury's
Aly testified that he shot at the assailant *
verdicts.
six times while the assailant fled the store. Shortly
after the robbery, appellant arrived at a nearby hospital
with two gunshot wounds. According to Investigator Long,
appellant told him that, after he was carjacked on Airtex
Boulevard, he returned to his car and drove to his
investigation
the
girlfriend's
house.
However,
subsequently revealed that the car was towed as an
abandoned vehicle from a moving lane of traffic near
Airtex. Sampson also told Investigator Long that he
picked appellant up at a Popeye's Chicken off of Airtex
and took him to the hospital. See Curry. 30 S.W.3d at 406 «
(noting that reviewing courts resolve inconsistencies in
evidence in favor of verdict).

-17-

.

In light of the DNA evidence, appellant's gunshot wounds,
and the discovery of appellant's abandoned car, it was
reasonable for the jury to infer that appellant committed
the charged offenses. Viewing the evidence in the light
most favorable to the verdict, we hold that the State
presented sufficient evidence for a reasonable fact
finder to conclude beyond a reasonable doubt that
appellant was the armed robber of Mo's Food Mart. We
overrule appellant's first point of error.
Jones

v.

State.

672842, at *3-4
pet.

Nos.

01-14-01-32-CR,

(Tex.. App. — Houston

01-14-01033-CR,
[1st Dist. ]

Feb.

2016

WL

18, 2016,

In reaching this conclusion the court of appeals

ref'd) .

expressly followed the legal standard articulated in Jackson for
evaluating challenges to the sufficiency of the evidence.
at

*2

(citing

Jackson

v.

Virginia.

99

S.

Ct.

See id.

2781

2789

(1979)(citations omitted)).
— As noted by the state court,

Jones was

identified as the

suspect because his DNA was recovered from items discarded by the
perpetrator

at

the

scene

and

he

sustained

gun-shot

wounds

consistent with those inflicted by one of the store clerks.*

None

of the evidence offered by Jones refutes any of the state court's
findings of fact,
review.
764,

769

which are presumed correct on federal habeas

See 28 U.S.C.
(1981)

§ 2254(e)(1); Sumner v. Mata,

101 S. Ct.

(observing that the presumption of correctness

"applies to factual determinations made by state courts, whether
the court be a trial court or an appellate court").

Under these

circumstances, the state court's well-reasoned opinion is entitled
to "great weight" on federal habeas review.

-18-

Parker v. Procunier.

763 F.2d 665,

666

(5th Cir.

1985)

(citing Jackson.

99 S. Ct. at

2791, n.15); see also Callins v. Collins. 998 F.2d 269, 276
Cir.

1993)

("Where

thoughtful

a

review of

state

appellate

the evidence

.

.

(5th

court

has

.

determination is

its

conducted

a

entitled to great deference.").
To the extent that Jones asks this

court to re-weigh the

evidence and decide if the jury's decision was correct, this type
of inquiry exceeds the scope of review permitted under the Jackson
standard.
Jackson.

See Schluo v. Delo. 115 S. Ct. 851, 868 (1995) (" [U] nder
the

assessment

of

the

credibility

generally beyond the scope of review.").

of

witnesses

is

A federal habeas corpus

court may not substitute its view of the evidence for that of the
fact-finder.
1995).

See Weeks v.

Scott.

55 F.3d 1059,

1062

(5th Cir.

Under the Jackson standard "[a]11 credibility choices and

conflicting inferences are to be resolved in favor of the verdict."
Ramirez v.
omitted).

Dretke.

398 F.3d 691,

695

(5th Cir.

2005)

(citation

Viewing all of the evidence under the doubly deferential

standard that applies on federal habeas review, Jones has not shown
that the state court's decision was objectively unreasonable or
that he is entitled to relief under Jackson.

Therefore, Jones is

not entitled to federal habeas corpus relief on his claim that the
evidence was insufficient to support his conviction.

Because his

remaining claims are procedurally barred due to his misconduct on
state habeas review, the court will grant Respondent's Motion and

-19-

dismiss this action without considering his ineffective-assistance
claims.
Petitioner's Request for an Evidentiary Hearing

IV.

Jones requests an evidentiary hearing on the merits of his
claims.26

The decision whether to hold an evidentiary hearing on
Where

federal habeas review is governed by 28 U.S.C. § 2254 (e) (2) .

an applicant has "failed to develop the factual basis of a claim in
State court proceedings," the federal habeas corpus court "shall
not hold an evidentiary hearing" on the claim unless the applicant
shows that:
(A)

the claim relies on —
(i)

a new rule of constitutional law,
made
retroactive
to
cases
on
collateral review by the Supreme
previously
was
that
Court,
unavailable; or

. (ii) a factual predicate that could not
have been previously discovered
through
the
exercise
of
due
diligence; and
(B)
the facts underlying the claim would be sufficient
to establish by clear and convincing evidence that but
for constitutional error, no reasonable fact-finder would
have found the applicant guilty of the underlying
offense.
28 U.S.C. § 2254 (e) (2) .

Jones fails to show that he is entitled to

a hearing under this statute.

Accordingly,

his request

for an

evidentiary hearing will be denied.

26Petitioner's Request for an Evidentiary Hearing With His
Suggestions in Support, Docket Entry No. 16, pp. 1-11.
-20-

V.

Certificate of Appealability

Rule 11 of the Rules Governing Section 2254 Cases requires a
district court to issue or deny a certificate of appealability when
entering a final

order that is adverse to the petitioner.

A

certificate of appealability will not issue unless the petitioner
makes

"a substantial showing of the denial of a constitutional

right,"

28 U.S.C.

demonstrate
court's

"that

assessment

wrong. / //

§ 2253(c)(2),
'reasonable
of

the

which requires a petitioner to

jurists

would

constitutional

find

claims

the

district

debatable

Tennard v. Dretke. 124 S. Ct. 2562, 2565 (2004)

Slack v. McDaniel. 120 S. Ct. 1595, 1604 (2000)).

or

(quoting

Where denial of

relief is based on procedural grounds, the petitioner must show not
only that "jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional
right," but also that they "would find it debatable whether the
district court was correct in its procedural ruling."

Slack. 120

S. Ct. at 1604.
A district court may deny a certificate of appealability,
sua soonte. without requiring further briefing or argument.
Alexander v. Johnson. 211 F. 3d 895,

898

(5th Cir.

2000) .

See
After

careful review of the pleadings and the applicable law, the court
concludes that reasonable jurists would not debate whether the
petitioner states a valid claim for relief or that the court's
Because the petitioner does not

procedural ruling was wrong.
otherwise

demonstrate

that

his

claims

-21-

could be

resolved

in a

different manner, a certificate of appealability will not issue in
this case.
S
VI.

Conclusion and Order

The court ORDERS as follows:
1.

Respondent Lorie Davis's Motion to Dismiss (Docket
Entry No. 12) is GRANTED.

2.

The Petition for a Writ of
Person in State Custody filed
Jones (Docket Entry No. 1)
action will be dismissed with

3.

Petitioner's Request for an Evidentiary Hearing
(Docket Entry No. 16) is DENIED.

4.

A certificate of appealability is DENIED.

Habeas Corpus By a
by William Monterial
is DENIED, and this
prejudice.

The Clerk shall provide a copy of this Memorandum Opinion and
Order to the parties.
SIGNED at Houston, Texas, on this 22nd day of April, 2019.

SIM LAKE
UNITED STATES DISTRICT JUDGE

-22-

Additional material
from this filing is
available in the
Clerk's Office.

